Matthew M. Madden

202.775.4529
mmadden@robbinsrussell.com

April 10, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
One First St., NE
Washington, D.C. 20543
Re:

Suzuki v. Deedy, No. 19-1153

Dear Mr. Harris:
I represent Respondent in the above-captioned case, in which the petition for
a writ of certiorari was filed on March 18, 2020, and placed on the docket on March
20, 2020. Respondent respectfully requests a 30-day extension of time, to and
including May 20, 2020, in which to file the brief in opposition, currently due on April
20, 2020.
A 30-day extension will ensure that we have sufficient time to analyze and
respond to the arguments raised in the petition for certiorari in this case.
Sincerely,

Matthew M. Madden
cc:

Donn Fudo
Thomas Otake

